                              Closeout for M97060020
    On June 23, 1997, we received a letter from the complainant1 alleging the
subject2 committed intellectual theft because the subject's paper contained some
similarities of ideas and results to his unpublished manuscript. The complainant
believed the subject, who was the thesis advisor of the complainant, took ideas from
a manuscript the complainant was preparing for his thesis and published them.3
The complainant said he raised this issue with a Dean4 in his university who told
him to withdraw the allegation. The complainant alleged that the Dean retaliated
against him by expelling him from the university when he did not retract his
allegation against the subject. The complainant agreed to provide documentation to
support his allegations of intellectual theft and retaliation.
   The complainant provided copies of his manuscript, the subject's paper, an
earlier paper of the subject's from which both complainant and subject use as a
starting point for their calculations, and a document comparing the complainant's
and subject's manuscripts. Both the complainant and the subject begin from the
same point and have the same goal (to extend the applicability of the subject's
earlier result). Because of the similar starting point and end goal, it is not
unexpected that there might be some similarities in methodology and some use of
the same terminology; it is possible that such similarities are common to the field.
We asked a scientist in the fields to compare the documents the complainant
provided and provide an assessment of his allegation of intellectual theft.
    The scientist discussed specific technical points about why he believed the two
manuscripts were different. The scientist wrote that the complainant's manuscript
used one method while the subject's paper used a different method to achieve their
respective results. He also noted that their respective approaches and notation was
very different, and the similarities in the two manuscripts was not obvious and
required a lot of technical discussion. He thought that although there was some
overlap in the ideas, the possibility of intellectual theft was "remote" and "it is much
more likely that this is a case of parallel discovery by two sets of authors who began
by trying [to] extend the results of the same paper."
   The complainant did not provide the documents that he said he would to support
his allegation of retaliation. Without such documentation, there is no evidence to
substantiate that allegation.
   OIG believes the scientist's analysis is fair, accurate, and reasonable. Because of
their different approaches to a similar problem, the complainant could submit his


   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).
   5 (footnote redacted).




                                      Page 1 of 2
                               Closeout for M97060020



paper for publication just as the subject did. Based on the evidence we have, this
inquiry is hereby closed and no further action will be taken on this case.

cc: Legal, AIG-Oversight, IG




                                     Page 2 of 2
